No. 20-6731
IN THE

Supreme Court of the United States
___________

KEVIN FRANCIS,
v.
MASSACHUSETTS,
___________

Petitioner,

Respondent.

On Petition for a Writ of Certiorari
to the Massachusetts Supreme Judicial Court
___________

REPLY OF PETITIONER
___________

AMY M. BELGER
LAW OFFICE OF AMY M.
BELGER
841 Washington Street
Holliston, MA 01746
(508) 893-6031
IRA L. GANT
INNOCENCE PROGRAM
COMMITTEE FOR PUBLIC
COUNSEL SERVICES
75 Federal Street
Boston, MA 02110
(617) 910-5764

JEFFREY T. GREEN *
JAQUELYN E. FRADETTE
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
jgreen@sidley.com
NAOMI A. IGRA
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94101
(415) 772-1200

Counsel for Petitioner
May 25, 2021

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES....................................

ii

REPLY BRIEF..........................................................

1

I. THE DECISION BELOW RELIED ON A
NOVEL PRINCIPLE OF THIRD-PARTY
WAIVER FOR INDIGENT
DEFENDANTS................................................

1

II. THE DECISION BELOW CREATES A
PERILOUS PRECEDENT AND WARRANTS REVIEW.............................................

8

CONCLUSION .........................................................

10

(i)

ii
CASES

TABLE OF AUTHORITIES

Page

Hicks v. United States, 137 S. Ct. 2000
(2017) .............................................................. 9, 10
Kansas v. Carr, 577 U.S. 108 (2016) ..............
6
Martinez v. Ryan, 566 U.S. 1 (2012) .............. 1, 3
Sochor v. Florida, 504 U.S. 527 (1992) .......... 5, 6
United States v. Gonzalez-Lopez, 548 U.S.
140 (2006) ......................................................
4
OTHER AUTHORITIES
Douglas Adams, The Hitchhiker’s Guide to
the Galaxy (1979) .........................................

2

REPLY BRIEF
Massachusetts acknowledges that the decision below relied on a “screener’s omission[]” when it concluded that Mr. Francis waived his meritorious Sixth
Amendment claim, even though the screener was not
his counsel. BIO 14. Nevertheless, Massachusetts
argues that the petition should be denied based on
what it describes as “independent and adequate state
procedural grounds” for the result below. Id. at 15.
That argument mischaracterizes the majority’s opinion, ignores the reasoning in Martinez v. Ryan, 566
U.S. 1 (2012), and misconstrues Massachusetts law.
Massachusetts’s other formulaic arguments about
Mr. Francis’ “unique circumstances,” BIO 21, and the
lack of a circuit split, id. at 25, do not respond to the
petition’s core assertion: the Court should grant, vacate, and remand, to prevent the novel and dangerous
principle of third-party waiver from taking root.
I. THE DECISION BELOW RELIED ON A
NOVEL PRINCIPLE OF THIRD-PARTY
WAIVER FOR INDIGENT DEFENDANTS
Massachusetts does not defend the principle of
third-party waiver but argues that this case is a “poor
vehicle” for the court to answer the question presented. BIO 14. According to the state, the decision below
would “likely stand” on remand because “Massachusetts law” required Petitioner to raise the question
presented at the first available opportunity, and he
failed to do so for “thirty-three years after the violation took place.” BIO 15. That argument is untenable for three reasons.
First, Massachusetts ignores the SJC’s express
statements that it relied on the actions of CPCS to
find waiver, and did not consider other facts suffi-

2
cient to find that Mr. Francis alone waived his claim.
The majority was explicit: “[W]e do not rely on the
defendant’s conduct alone in finding waiver.” Pet.
App. 42a. And it rejected precisely the interpretation
of Massachusetts law the state advances: “Recognizing the stringency of that case law, in the instant
case, we have not relied simply on the defendant’s
failure to raise the issue at trial or in his first motion
for a new trial.” Pet. App. 45a.
Nevertheless, Massachusetts emphasizes that “the
arraignment transcript was available” in 1992 when
Mr. Francis filed a pro se motion for a new trial. BIO
18. 1 It acknowledges that “[a]s part of the screening
process, the petitioner provided all the documents
and information in his possession to the screener.”
Id. at 16. Yet Massachusetts attempts to reframe the
opinion below as though Mr. Francis waived it independently of any CPCS involvement merely because
the transcript was available. 2
That is not how the SJC decided this case. The SJC
made very clear that it “also considered the multiple
See also BIO 19 (“[T]he petitioner’s failure to raise his
choice-of-counsel claim in his pro se motion for new trial, combined with a delay of more than thirty years during which the
arraignment transcript was in the petitioner’s possession, fo rm
a sufficient basis for finding waiver under well-established procedural waiver jurisprudence in Massachusetts.”).
1

2 Mere availability of a transcript has not been recognized as a
legal ground for waiver. And for good reason. To do so would be
as preposterous as the Galactic Hyperspace P lanning Council
asserting that Earthlings must have been aware their planet
was slated for demolition because the planning charts had be en
on display in Earth’s “local planning department on Alpha Ce ntauri for fifty of your Earth years so [Earthlings] had p lenty o f
time to lodge any formal complaint . . . .” Douglas Ad ams, The
Hitchhiker’s Guide to the Galaxy, 26 (1979).

3
opportunities counsel had to correct the problem before deciding there was a waiver,” along with the passage of time. Pet. App. 45a (emphasis added). In other words, it treated CPCS – third-party case screeners who did not represent Mr. Francis – as holding
the power to waive Mr. Francis’ meritorious claim.
Indeed, the SJC noted that CPCS has a “significant
responsibility that entails the identification of legal
issues during the screening process, [that] is not
comparable to private counsel’s decision to take a
case”, and that “CPCS screening contributes to delay,
and delay is a significant factor as it makes it more
and more difficult to retry the case with each passing
year.” Id. at 43a–44a. As the dissent recognized, the
majority’s finding as to waiver was based on the “unreasonable” proposition that a “defendant waives a
claim because an attorney reviewed the file in his
case but ultimately decided not to represent him.” Id.
at 54a–55a (Gants, C.J., & Budd, J. dissenting in
part).
Second, Massachusetts’ characterization of the
purported waiver cannot be squared with this Court’s
reasoning in Martinez, 566 U.S. at 9. In Martinez,
this Court held that the government cannot claim
procedural waiver when a defendant was denied effective counsel at the first opportunity for errorcorrecting review. See id. at 18. The facts are even
more egregious here than in Martinez, because
Hrones – Mr. Francis’ volunteer unappointed and
unpaid counsel represented him in his direct appeal
and continued to keep Mr. Francis “in the dark”
about what had occurred at the arraignment hearing.
Pet. App. 30a. In 1991, Mr. Francis filed a motion
asking for appointment of counsel. Id. at 82a. The
Superior Court endorsed the motion and issued an
order for CPCS to appoint counsel. Id. at 128a. But

4
that order was countermanded by the Chief Counsel
for CPCS, a state agency in the judicial department
that has no judicial power. Id. at 9a. Mr. Francis was
thus denied effective counsel at that point too. The
first time Mr. Francis had counsel that could engage
in error correcting review of his conviction was in December 2014, when counsel was finally appointed. Id.
at 34a.
As Chief Justice Gants explained in dissent, finding
waiver here would be particularly “unwarranted and
unjust given the second motion judge’s decision in
2018 not to find waiver and the facts of this case as
found by that motion judge.” Id. at 56a. Given that
Massachusetts Rule of Criminal Procedure 30(c)(2)
gives the trial court discretion to excuse waiver, under the facts of this case, “it was neither an abuse of
discretion nor an error of law for the second motion
judge to conclude that the defendant did not waive
his claim of structural error by failing to recognize
and assert this novel, fairly subtle constitutional issue in his first motion for a new trial.” Id. at 58a.
Massachusetts’ Opposition all but ignores how the
reasoning in Martinez pertains to this situation; it
only attempts to distinguish Martinez in a footnote
observing that Martinez was a federal habeas review
case and this is not. BIO 23 n. 14. But the principle
in Martinez applies with full force here: Mr. Francis
was denied any counsel (let alone effective counsel),
in direct contravention of the Superior Court’s order,
at the first possible opportunity anyone could have
raised the issue. And like the right to effective counsel in Martinez, choice of counsel is a fundamental
trial right warranting automatic reversal and a new
trial. See United States v. Gonzalez-Lopez, 548 U.S.
140, 150 (2006). It would be absurd to excuse procedural default where a defendant had the assistance of

5
counsel who fell below the standards of Strickland,
but find structural error waived where the defendant
was denied the assistance of any counsel to identify
the error.
Third, Massachusetts is wrong to suggest that
there is an adequate and independent basis for the
SJC’s decision under state law. Massachusetts cites
Sochor v. Florida, 504 U.S. 527 (1992), BIO 19, but
that decision recognizes that the state court opinion
must “indicate clearly and expressly that the state
ground is an alternative holding” in order for this
doctrine to apply. Sochor, 504 U.S. at 533 (internal
citation omitted). That is simply not what the SJC
did below.
After holding that Mr. Francis’ right to choice of
counsel under the State and Federal Constitutions
was violated, and that this was structural error warranting automatic reversal, the SJC stated that
“[n]onetheless, the delay of more than thirty years in
bringing these claims in these circumstances, where
the claim was not first brought until 2015, but the
transcript clearly depicting the constitutional violations was available for the defendant in 1991 and for
the public defense counsel screening his claims in
1992-1993 and 2000, waives the claims under State
and Federal constitutional law.” Pet. App. 5a. (emphasis added). The SJC relied most heavily on this
Court’s Sixth Amendment decision in Weaver to support its holding that the “passage of time has huge
consequences.” Pet. App. 34a. See, e.g., id. at 30a–
37a, 49a (explaining that “[w]e recognize, as does the
Supreme Court, that the passage of time, particularly
the great passage of time, matters” and citing both
Weaver v. Massachuetts, 137 S. Ct. 1899, 1912 (2017)
and Commonwealth v. Robinson, 102 N.E.3d 357, 362
(Mass. 2018)). When analyzing whether there was a

6
“substantial risk of a miscarriage of justice” the SJC
explicitly stated that “[w]e have interpreted this
standard, as we must, to be no less protective than
the United States Supreme Court standard of review
in Weaver.” Pet. App. 35a (emphasis added). “[W]hen
[a state] Supreme Court time and again [rules] because it says the Federal Constitution requires it, review by this Court, far from undermining state autonomy, is the only possible way to vindicate it.”
Kansas v. Carr, 577 U.S. 108, 118 (2016). This Court
noted in Carr that “[w]hen we correct a state court’s
federal errors, we return power to the State, and to its
people.” Id. (internal citation omitted).
The SJC is in need of such correction here. Using
federal law as its benchmark, the majority concluded
that “[w]e therefore discern no substantial risk of a
miscarriage of justice under our case law, nor a probability of a different outcome or fundamental unfairness as defined by the Supreme Court.” Pet. App.
37a.
The SJC plainly knew how to “‘indicate[] clearly
and expressly’ that [a] state ground is an alternative
holding,” Sochor, 504 U.S. at 533 (internal citation
omitted), and it declined to do so for its waiver analysis. In footnote 8, citing Michigan v. Long, 463 U.S.
1032, 1041 (1983), the SJC held that “[s]hould the
Supreme Court standard change [for choice of counsel], and we make no projections whatsoever in that
regard, as that is not our prerogative, . . . we would
still interpret art. 12 as providing a separate, adequate, and independent basis for determining that
the arraignment judge's improper blurring and crossing of the lines between public and private counsel—
which resulted in his denial of the defendant’s right
to qualified appointed counsel and instead his selection of a lawyer for the defendant as private counsel,

7
all without the defendant’s knowledge or consent—is
structural error.” Pet. App. 29a. (emphasis added).
This stands in stark contrast to its waiver analysis
where although the SJC relies on federal law, there is
a complete absence of such a clear statement.
Moreover, the SJC’s opinion does not rest on any of
the purported “alternative” grounds that Massachusetts claims are sufficient for this Court to affirm.
The SJC’s majority opinion never discusses, or even
cites in its analysis, the state procedural rule, Rule
30(c)(2) of the Massachusetts Rules of Criminal Procedure, upon which Massachusetts relies. BIO 17.
Chief Justice Gants’ dissenting opinion points out
that this procedural rule could only provide a basis
for not finding waiver under these circumstances.
Pet. App. 52a, 56a–59a; see also id. at 58a (“Given
these findings, it was neither an abuse of discretion
nor an error of law for the second motion judge to
conclude that the defendant did not waive his claim
of structural error by failing to recognize and assert
this novel, fairly subtle constitutional issue in his
first motion for a new trial.”). The SJC also never
stated that Mr. Francis’ possession of the transcripts
alone was a sufficient and alternative basis for finding waiver of his Sixth Amendment and state Constitutional choice of counsel claim. Cf. BIO 18. In fact,
as discussed above, the SJC “[r]ecogniz[ed] the stringency of [public trial] case law” and, thus, did “not
rel[y] simply on defendant’s failure to raise the issue .
. . in his first motion for a new trial.” The SJC held
that Mr. Francis’ possession of the transcripts and
failure to raise this error in his first motion for a new
trial was not the basis for finding waiver. Pet. App.
45a.

8
II. THE DECISION BELOW CREATES A PERILOUS PRECEDENT AND WARRANTS REVIEW
Massachusetts’ remaining arguments bypass the
heart of the petition and confirm that the decision below cannot survive review.
1. Massachusetts contends that this Court should
deny the petition because the “decision below is correct.” BIO 28. But Massachusetts does not expressly
defend the proposition that a third-party screener can
waive an indigent defendant’s meritorious Sixth
Amendment claim. Instead, Massachusetts asserts
that the decision could stand for a variety of other
reasons, including a procedural rule the majority
never even mentioned and the dissent expressly rejected as a basis for the decision. Compare BIO 17
with Pet. App. 52a, 56a–59a. Although Massachusetts asserts that the SJC did not rely “solely” on the
actions of a third party to find waiver, BIO 24, it never explains how CPCS’s conduct could be relevant at
all when CPCS was not Mr. Francis’ counsel. Because
CPCS did not represent Mr. Francis at the time of the
screening, the SJC was plainly wrong to consider any
of the actions of CPCS in its waiver analysis. Massachusetts never wrestles with this fundamental problem, or the petition’s argument that CPCS cannot
possibly play any role in the waiver analysis because
of its conflicting interests. Pet. 13–15.
2. Massachusetts also contends that the decision
below is “fact-bound,” BIO at 24, and involves
“unique circumstances” that are unlikely to recur. Id.
at 22. But Mr. Francis never suggested that the particular circumstances of his arraignment hearing are
what makes this case worthy of review. Instead, the
cert-worthy issue is what the dissent referred to as
the “invent[ion of] a new and distinct ground for

9
waiver,” Pet. App. 55a (Gants, C.J., & Budd, J. dissenting in part). As the dissent recognized, the implications of this new form of waiver extend to the entire CPCS screening process. Pet. App. 55a. Massachusetts claims that broader concerns about screening programs in general are “unfounded” because the
decision below does not hold that “screening alone
can trigger waiver.” BIO 28. But if the actions of
third parties figure into the waiver analysis at all,
that is dangerous enough. As the petition points out,
and Massachusetts does not deny, third parties
screen cases in a variety of contexts that create the
same risks the dissent recognized as to CPCS. Pet.
15–16.
3. Massachusetts’ argument that there is no “split
of authority,” BIO 25, as to the question presented is
not a response to the petition. The petition argues
that the SJC’s ruling is novel and warrants reversal
before a split even develops. Pet. 15–19. The petition
expressly requests that the Court “grant, vacate, and
remand the underlying decision” before the SJC’s
new third party waiver rule takes root. Id. at 18.
Massachusetts contends the Court should reject that
request because this case does not “fit” into a category the Court considers appropriate for GVR. BIO 21.
But that argument is premised on the notion that Mr.
Francis is asking the court to “step in and correct” an
error in a “highly fact-specific analysis.” Id. at 27.
That is not an accurate characterization of what the
petition seeks. Mr. Francis is not looking to the
Court to correct the SJC’s factual analysis but to confirm that “a plain legal error infects the judgment,”
Hicks v. United States, 137 S. Ct. 2000, 2000 (2017)
(Gorsuch, J., concurring), because the SJC relied on a
third party’s conduct to find that an indigent defendant waived his meritorious Sixth Amendment claim.

10
In these circumstances, there is no reason for the
court not to simply “correct an obvious judicial error,”
Id. at 2001, and ample reason for it to affirmatively
reject the “new and distinct ground for waiver,” that
was just “invent[ed]” by the SJC. Pet. App. 55a.
CONCLUSION
For the foregoing reasons, the Court should grant,
vacate, and remand the case to the SJC.
Respectfully submitted,
AMY M. BELGER
LAW OFFICE OF AMY M.
BELGER
841 Washington Street
Holliston, MA 01746
(508) 893-6031
IRA L. GANT
INNOCENCE PROGRAM
COMMITTEE FOR PUBLIC
COUNSEL SERVICES
75 Federal Street
Boston, MA 02110
(617) 607-5771

JEFFREY T. GREEN *
JAQUELYN E. FRADETTE
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
jgreen@sidley.com
NAOMI A. IGRA
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94101
(415) 772-1200

Counsel for Petitioner
May 25, 2021

* Counsel of Record

